EXECUTIVE SUMMARY: SPINAL DEVICES SUPPLIED BY PHYSICIAN-
OWNED DISTRIBUTORS: OVERVIEW OF PREVALENCE AND USE
OEI-01-11-00660

WHY WE DID THIS STUDY

This report responds to a congressional request to determine the extent to which
physician-owned distributorships (PODs) provide spinal devices to hospitals. PODs’
physician-owners can include the surgeons who implant the PODs’ devices; these owners
have an opportunity to profit from using the devices their PODs sell. Critics of PODs
claim that such ownership creates a conflict of interest that may affect physicians’
clinical decisionmaking. PODs assert that their devices cost less than devices provided
by other spinal device companies.

HOW WE DID THIS STUDY

We selected a sample of 1,000 claims billed to Medicare in fiscal year (FY) 2011 that
included spinal fusion surgery. We asked each hospital associated with these claims to
complete a questionnaire about its knowledge of physician ownership of spinal device
suppliers. We also asked each hospital to complete a worksheet with details about the
spinal devices used in each surgery in our sample.

WHAT WE FOUND

In FY 2011, PODs supplied devices used in nearly one in five spinal fusion surgeries
billed to Medicare. Spinal surgeries that used POD devices used fewer devices but did
not have lower per surgery device costs than surgeries that did not use POD devices.
Among the hospitals in our sample, about a third reported buying spinal devices from
PODs. When hospitals in our sample began buying from PODs, their rates of spinal
surgery grew faster than the rate for hospitals overall. Finally, in FY 2012, surgeons
performed more spinal surgeries at hospitals in our sample that purchased from PODs
than at those that did not purchase from PODs.

WHAT WE CONCLUDE

PODs are a substantial presence in the spinal device market. Our findings raise questions
about PODs’ claim that their devices cost less than those of other suppliers. Surgeons
performed more spinal surgeries at hospitals that purchased from PODs, and those
hospitals experienced increased rates of growth in the number of spinal surgeries
performed in comparison to the rate for hospitals that did not purchase from PODs.
Taken together, these factors may increase the cost of spinal surgery to Medicare over
time. Finally, hospitals’ policies varied in whether they required physicians to disclose
ownership interests in PODs to either the hospital or their patients. Thus the ability of
hospitals and patients to identify potential conflicts of interest among these providers is
reduced.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

           In FY 2011, PODs supplied the devices used in nearly one in five
           spinal fusion surgeries billed to Medicare .......................................8 

           Spinal fusion surgeries that used PODs devices used fewer devices 

           but did not have lower device costs .................................................8 

           About a third of hospitals in our sample purchased spinal devices
           from PODs .....................................................................................10 

           When hospitals in our sample began purchasing devices from 

           PODs, their rates of spinal surgery grew faster than the rate for 

           hospitals overall .............................................................................13 

           In FY 2012, hospitals in our sample that purchased from PODs 

           performed more spinal surgeries than those that did not purchase 

           from PODs .....................................................................................16 

Conclusion .................................................................................................18 

Appendixes ................................................................................................19 

           A: Detailed Methodology .............................................................19 

           B: Confidence Intervals ................................................................25 

           C: Distribution of Sampled Surgeries by State .............................26 

Acknowledgments......................................................................................27 

                     OBJECTIVES
                     1.	 To determine the extent to which spinal fusion surgeries used spinal
                         devices provided by physician-owned distributors (PODs).
                     2.	 To determine whether the cost and quantity of spinal devices used in
                         spinal fusion surgeries differed when spinal devices were supplied by
                         PODs.
                     3.	 To determine the extent to which hospitals associated with a sample of
                         spinal fusion surgeries purchased spinal devices from PODs.
                     4.	 To determine whether the rates and complexities of spinal surgeries
                         differed when hospitals associated with a sample of spinal fusion
                         surgeries purchased spinal devices from PODs.

                     BACKGROUND
                     In fiscal year (FY) 2012, Medicare paid hospitals a total of $3.9 billion for
                     178,789 spinal surgeries. Medicare reimbursed hospitals an average of
                     $21,613 for each of these surgeries. On average, Medicare reimbursed
                     hospitals $10,289 for the least complicated spinal surgeries and
                     $34,676 for the most complicated surgeries.
                     This report responds to a congressional request. The requestors expressed
                     concerns about the growth of physician-owned distributorships and the
                     potential adverse effect that these entities could have on Medicare
                     beneficiaries and Federal health care programs. The requestors asked the
                     Office of Inspector General (OIG) to examine a number of issues
                     regarding PODs. In response, OIG stated that it would determine the
                     extent to which PODs provide spinal devices to hospitals.
                     Overview of Physician-Owned Device Companies
                     Companies not owned by physicians most commonly supply spinal
                     devices to hospitals through their staff or contracted sales representatives.
                     These sales arrangements may also provide other services, such as
                     operating-room technical support, inventory management, and coding
                     assistance.
                     Some physicians, including surgeons who implant spinal devices, have
                     ownership stakes in spinal device companies. For the remainder of this
                     report, we will refer to such companies as PODs.
                     Physicians invest in a variety of POD arrangements. PODs vary in
                     (1) whether their physician-investors practice in the hospitals to which
                     they distribute devices, (2) whether they solely distribute devices or both
                     manufacture and distribute their own devices, and (3) which services they


Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   1
                     offer along with the purchase of their devices. Regardless of the business
                     arrangement, PODs offer physician-investors the opportunity to profit
                     from using the devices their PODs sell.
                     Controversy Over PODs
                     Benefits of PODs. PODs assert that they supply spinal devices at a lower
                     cost than companies not owned by physicians. They claim to reduce costs
                     to hospitals by lessening the need for sales representatives, procuring
                     inventory from smaller manufacturers, and increasing competition in the
                     market for devices.
                     Vulnerabilities of PODs. Critics of PODs claim that PODs create a
                     conflict of interest that could affect physicians’ clinical decisionmaking.
                     Ownership may encourage surgeons to perform unnecessary and
                     inappropriate spinal surgeries to drive sales for their companies. Critics
                     claim that surgeons may also perform more spinal refusion surgeries, also
                     known as revision surgeries. These surgeries sometimes involve removing
                     previously implanted devices and replacing them with new devices.
                     Critics claim that PODs may encourage surgeons to perform these
                     surgeries.
                     PODs potentially raise legal concerns under the Anti-Kickback Statute.
                     The statute makes it a criminal offense to knowingly and willfully offer
                     remuneration to induce, or in return for, referrals of items of services
                     reimbursable by a Federal health care program.1 By its terms, the statute
                     ascribes criminal liability to parties on both side of an impermissible
                     “kickback” transaction.2
                     In 2013, OIG released a Special Fraud Alert on Physician Owned Entities.
                     OIG stated that PODs are inherently suspect under the Anti-Kickback
                     Statute and set forth a number of suspect characteristics about which it is
                     concerned.3 OIG is particularly concerned about PODs because surgical
                     implants “typically are ‘physician preference items,’ meaning that both the
                     choice of brand and the type of device may be made or strongly influenced
                     by the physician, rather than the hospital where the procedure is
                     performed.”4 The Fraud Alert echoes OIG guidance from 2006 that
                     specifically addressed physician investments in medical device
                     manufacturers and distributors. In that guidance, OIG acknowledged the
                     “strong potential for improper inducements between and among the

                     1
                       Section 1128B(b) of the Social Security Act. 

                     2
                       Ibid. 

                     3
                       OIG Special Fraud Alert, Physician Owned Entities (Mar. 2013). Accessed at 

                     http://oig.hhs.gov on May 13, 2013.

                     4
                       Ibid. 




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   2
                     physician investors, the entities, device vendors, and device purchasers”
                     and stated that such arrangements should be “closely scrutinized under
                     fraud and abuse laws.”5
                     The Sunshine Act
                     Hospitals and patients may be unaware of physicians’ investment in
                     PODs. However, regulations that the Centers for Medicare & Medicaid
                     Services (CMS) recently issued under the Physician Payments Sunshine
                     Act will require PODs to become more transparent. 6 As of August 1,
                     2013, CMS requires manufacturers and group purchasing organizations to
                     report all physician ownership and investment interests to CMS annually.7
                     The regulations define group purchasing organizations as including most
                     PODs, but CMS may determine, on a case-by-case basis, whether it
                     considers a particular POD arrangement to be a group purchasing
                     organization under the final rule.8 CMS will make a database of
                     compensated physicians publicly available.
                     Spinal Procedures and Devices Associated With Spinal Surgeries
                     Spinal surgery often involves implanting devices that immobilize or
                     reduce pressure on the spine. Some of the indications for spinal surgery
                     are disc degeneration, spinal stenosis, fractures, tumors, and vertebral
                     instability.9 Two common spinal procedures—spinal fusion and
                     decompression—often involve implanting medical devices and biologics
                     (such as bone grafts). Each spinal surgery may involve one or more spinal
                     procedures.
                     Spinal Fusion Procedures. Spinal fusion is considered either simple or
                     complex depending on the number of vertebrae fused. Simple spinal
                     fusion joins two or three vertebrae to one another, often using both bone
                     grafts and devices to immobilize the vertebrae. Complex spinal fusion
                     involves fusing more than three vertebrae using similar devices and
                     grafting techniques.10
                     Decompression Procedures. Decompression is performed to relieve
                     pressure on the spinal cord and/or nerve roots. To do this, surgeons might
                     remove bone spurs and part or all of a lamina, vertebra, or spinal disk.

                     5
                       Ibid.
                     6
                       The Physician Payments Sunshine Act was part of the Patient Protection and Affordable 

                     Care Act, P.L. 111-148 § 6002, Social Security Act, § 1128G. 

                     7
                       42 CFR § 403.906.

                     8
                       42 CFR § 403.902; 78 Fed Reg 9458, 9493 (Feb. 8, 2013). 

                     9
                       OrthoInfo, Spinal Fusion. Accessed at http://orthoinfo.aaos.org/ on Oct. 20, 2013. 

                     10
                        We defined “complex spinal fusion” and “simple spinal fusion” according to the

                     International Classification of Diseases, Ninth Revision, Clinical Modification (ICD-9-
                     CM) procedure codes.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   3
                     Surgeons might also use a device to expand the openings where nerves
                     exit the spinal cord. Surgeons can perform a spinal fusion in conjunction
                     with decompression, depending upon the extent of the decompression
                     procedure and its impact on the stability of the spine.11
                     Spinal Devices. Spinal procedures may involve implanting a number of
                     different spinal devices, including plates, screws, pedicle screws, rods,
                     cap/set screws, and interbody cages. Plates and screws are used in
                     conjunction with one another to properly align vertebrae. Surgeons
                     stabilize the spine either by affixing the plate directly to the vertebral bone
                     with screws or by inserting pedicle screws into adjacent vertebrae and
                     connecting screws with rods. Cap/set screws are used to affix rods to
                     pedicle screws. Interbody cages are implanted between vertebrae to host
                     the bone graft used to fuse adjacent vertebrae. The interbody cage helps
                     maintain height between vertebrae as the bone graft hardens.
                     Medicare Payment for Spinal Surgery Using Spinal Devices
                     Medicare covers only spinal implant surgery performed in the inpatient
                     setting. It makes separate payments for surgeons’ professional fees and
                     for hospitals’ facility charges. Medicare Part B pays surgeons under the
                     Medicare Physician Fee Schedule. Medicare Part A pays the hospitals
                     under the Inpatient Prospective Payment System (IPPS).
                     Under the IPPS, Medicare classifies each case into one of 747 medical
                     severity diagnosis related groups (MS-DRG). These groups are based on
                     the beneficiary’s diagnoses and the procedures performed, as well as other
                     factors reported by the hospital on the claim. Payment for the MS-DRG
                     covers nearly all costs associated with the hospital stay, including any
                     spinal devices implanted into the beneficiary.




                     11
                      The Cleveland Clinic, Spinal Decompression Surgery, Treatments and Procedures.
                     Accessed at http://my.clevelandclinic.org on Oct. 14, 2011.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   4
                     METHODOLOGY
                     This study used Medicare claims and enrollment data, a review of the
                     spinal devices implanted during a representative sample of spinal fusion
                     surgeries billed to Medicare, and questionnaire responses from the
                     hospitals that billed for Medicare for these surgeries. See Appendix A for
                     a full discussion of our methodology.
                     Scope
                     This study is national in scope. For the purposes of this study, we defined
                     “spinal surgery” as spinal decompression and spinal fusion. Our sample
                     of claims included surgeries that involved a spinal fusion procedure and
                     were billed to Medicare during FY 2011. We sampled such claims
                     because surgeries involving spinal fusion were more likely to use
                     implanted spinal devices than surgeries that involved only decompression.
                     We did not make any judgment on the legality of hospitals’ relationships
                     with PODs or on the appropriateness of spinal surgeries performed by
                     hospitals.
                     Sample Selection
                     We selected a simple random sample of 1,000 claims for spinal fusion
                     surgery from Medicare’s Standard Analytical File of 100-percent inpatient
                     claims for FY 2011. After clearing the 615 hospitals associated with these
                     claims with OIG’s Office of Investigations, we removed 29 claims from
                     19 hospitals from our sample. Our data collection sample included
                     971 claims from 596 hospitals.
                     Data Collection
                     We administered a questionnaire to hospitals and asked them to complete
                     an invoice worksheet using secure Web-based survey software. We made
                     three attempts to obtain responses. Of the 596 hospitals that we asked to
                     complete the questionnaire, 589 hospitals responded. These hospitals also
                     provided invoice information for 963 of the 1,000 claims included in our
                     sample.12 Our overall response rate was 96 percent.
                     Hospital Questionnaire. We asked each hospital that billed for one or
                     more spinal surgeries in our sample to answer a series of questions about
                     the entities from which it purchases spinal devices. As part of those
                     questions, we asked each hospital about its awareness of physician
                     ownership among its suppliers of spinal devices. We defined “physician
                     owners” as those with a partial or full ownership stake through private
                     investment, excluding stock in a publicly traded company.


                     12
                       Five of the hospitals in our sample refused to provide invoice information detailing
                     spinal devices implanted during eight inpatient stays covered by Medicare. We will refer
                     these hospitals to CMS.



Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   5
                     Invoice Review. We asked each hospital to complete a worksheet for each
                     of its spinal surgeries in our sample. The worksheet compiled detailed
                     data about the spinal devices used for the surgery and the entities that
                     supplied them to the hospital. We asked hospitals to substantiate the data
                     they provided on the worksheets by sending us hard copies of supporting
                     documents, such as invoices and purchase orders.
                     Data Analysis
                     We analyzed data from the invoice review and the hospital questionnaire
                     responses to determine the extent to which spinal surgeries used spinal
                     devices provided by PODs and whether the cost or quantity of spinal
                     devices used in these surgeries differed for POD-provided devices.
                     To determine the extent to which hospitals associated with our sample of
                     claims purchased spinal devices from PODs, we analyzed data from the
                     questionnaire responses and the invoice review. We counted hospitals as
                     purchasing from PODs if they self-identified as using PODs in the
                     responses or invoice review or if we identified such purchasing by
                     cross-referencing these two data sources.
                     We analyzed data from the questionnaire responses to explain why
                     hospitals purchased spinal devices from PODs and determine the extent to
                     which they had policies on physician disclosure of ownership in medical
                     device companies.
                     To determine whether rates and complexities of spinal surgeries differed
                     when hospitals purchased from PODs, we analyzed hospitals’ Medicare
                     claims to describe their spinal surgery caseloads both (1) before and after
                     they began purchasing from PODs and (2) in FY 2012. We used three
                     measures to describe the complexity of hospitals’ caseloads: the
                     percentage of spinal surgery caseload that was spinal fusion, the
                     percentage that was complex spinal fusion, and the percentage that was
                     refusion surgery.
                     Limitations
                     This study relies on Medicare claims and the hospital questionnaire
                     responses, which were self-reported by hospitals. We did not
                     independently verify these data. Certain findings are limited to the
                     hospitals associated with our sample of claims and are not generalizable.
                     We describe changes in utilization rates over time, but did not determine
                     the cause of those changes. We relied on ICD-9-CM procedure codes
                     reported by hospitals on Medicare claims to determine the type and
                     complexity of spinal procedures. We also did not assess the clinical
                     benefits or equivalency of POD devices and non-POD devices.



Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   6
                     Standards
                     This study was conducted in accordance with the Quality Standards for
                     Inspection and Evaluation issued by the Council of the Inspectors General
                     on Integrity and Efficiency.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   7
                     FINDINGS
                     In FY 2011, PODs supplied the devices used in
                     nearly one in five spinal fusion surgeries billed to
                     Medicare 
                     PODs supplied spinal devices for 19 percent of the spinal fusion surgeries
                     billed to Medicare in FY 2011. Of the surgeries that used POD devices,
                     about two-thirds used a mix of such devices and devices that were not
                     from PODs. About one-third of these surgeries used only POD devices.
                     The distribution of surgeries that used POD devices varied geographically
                     (see Appendix C). Surgeries from California and Texas composed one
                     quarter of the surgeries in our sample that used POD devices, with
                     14 and 11 percent, respectively. Just over a quarter were performed in
                     Missouri (6 percent), Florida (6 percent), Pennsylvania (5 percent)
                     Alabama (5 percent), and Georgia (5 percent). 
                     Spinal fusion surgeries that used POD devices
                     used fewer devices but did not have lower device
                     costs
                     Critics of PODs argue that because PODs link surgeons’ compensation to
                     the number of devices they implant, they have the potential to increase
                     the number of devices used during spinal surgeries. However, proponents
                     of PODs claim that PODs reduce the cost of spinal devices by lessening
                     the need for sales representatives and increasing competition in the spinal
                     device market. Medicare payment is tied to the MS-DRG classification
                     of the hospital stay, so any difference in device costs would not
                     immediately affect the amount Medicare or the beneficiary paid for a
                     given stay. However, Medicare payment to hospitals could change over
                     time as device costs are factored into hospitals’ Medicare reimbursement
                     through cost reporting.
                     Surgeries that used POD devices used about two fewer
                     devices per surgery than surgeries that did not use POD
                     devices 
                     Overall, surgeries that used POD devices implanted an average of
                     12.3 spinal devices compared to an average of 14.2 spinal devices for
                     surgeries that did not implant POD devices. The number of devices
                     implanted during complex spinal fusion surgeries accounts for this
                     difference. Complex spinal fusion surgeries that used POD devices
                     implanted an average of 16.5 devices compared to an average of
                     23 devices for complex spinal fusion surgeries that did not implant POD




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   8
                     devices.13
                     Device costs for surgeries that used POD devices were not
                     lower than those for all other surgeries 
                     We did not find a statistically significant difference between the average
                     total device cost for spinal surgeries that used POD devices and those that
                     that did not use POD devices.14
                     Furthermore, none of the six types of spinal devices we examined was less
                     costly per unit when provided by PODs, and one was more costly when
                     provided by PODs (see Table 1). Using data from the invoice review, we
                     determined and compared the prices that hospitals paid PODs and
                     distributors not owned by physicians for rods, cap/set screws, pedicle
                     screws, interbody fusion devices, spinal plates, and other screws. We
                     found no statistical difference between the price hospitals paid PODs and
                     distributors not owned by physicians for rods, cap/set screws, pedicle
                     screws, other screws, and interbody fusion devices. However, we found
                     that hospitals paid $845 more for spinal plates from PODs. This
                     difference could eventually raise a hospital’s Medicare reimbursement
                     through increased device costs in its cost reporting. 
                     Table 1: Average Cost of Spinal Devices by Device Type

                                                                            Cost of POD          Cost of Non-
                                                                                                                  Statistically
                         Device Type                                                                               Significant
                                                                                Devices          POD Devices
                                                                                                                   Difference

                         Spinal plates *                                           $2,475               $1,630           $845

                         Other screws †                                              $699                 $620               -

                         Interbody fusion devices, non-bone †                      $2,821               $2,998               -

                         Pedicle screws †                                            $942                 $892               -

                         Rods †                                                      $345                 $360               -

                         Cap/set screws †                                            $142                 $148               -
                     Source: OIG analysis of hospital questionnaire responses and invoice worksheet data, 2013.
                     * Denotes a statistically significant difference at the p<.05 level.
                     † Denotes no statistically significant difference at the p<.05 level.




                     13
                        Complex spinal fusion surgeries make up over a fifth both of surgeries that use POD
                     devices and surgeries that do not use POD devices (21 and 25 percent, respectively).
                     14
                        The average total device cost for surgeries that used POD devices was $11,601 and the
                     average total device cost for surgeries that did not use POD devices was $11,383. The
                     difference between these two averages is not statistically significant at the .05 level.



Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)                         9
                     About a third of hospitals in our sample
                     purchased spinal devices from PODs 
   

                     Thirty-four percent of hospitals in our sample (203 of 589 hospitals)
                     purchased spinal devices from PODs. About three-fifths, or 119, of those
                     hospitals self-identified on the questionnaire responses as having
                     purchased from PODs. We identified the remaining two-fifths, or
                     84 hospitals, by cross-referencing PODs that hospitals identified in their
                     responses with device suppliers that hospitals reported on their invoice
                     worksheets (see Table 2).
                     Table 2: Types of Hospitals in Our Sample

                                                                                  Number of
                         Hospital Type
                                                                                   Hospitals

                         Hospitals that purchased from PODs                                 203

                           Self-identified hospitals                                  119

                           Cross-referenced hospitals                                  84

                         Hospitals that did not purchase from PODs                          386

                         All hospitals in our sample                                        589

                     Source: OIG analysis of hospital questionnaire responses and invoice review, 2013.


                     The following analysis is limited to the 119 hospitals that reported in
                     their questionnaire responses that they used PODs. We analyzed this
                     subset of hospitals because our questionnaire collected additional
                     details about hospitals’ interactions with PODs only when hospitals
                     self-identified as purchasing from PODs. We were unable to collect
                     these details for the hospitals that we identified through our cross-
                     reference as purchasing from PODs.
                     Most hospitals began purchasing spinal devices from PODs in
                     the last 10 years 
                     Hospitals reported purchasing from PODs as early as 1997. However,
                     the majority (88 percent) of hospitals that purchased from PODs began
                     doing so after 2005. Nearly half (41 percent) of hospitals that purchased
                     from PODs began doing so recently, between 2010 and 2012 (see
                     Chart 1 on the following page).




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   10
                     Chart 1: Hospitals in Our Sample That Purchased Spinal Devices From
                     PODs, by Year

                                          140

                                          120

                                          100


                          Hospitals (#)
                                          80

                                          60

                                          40

                                          20

                                           0


                                                                            Year

                     Source: OIG analysis of hospital questionnaire responses, 2013.


                     Hospitals identified surgeon preference as the strongest
                     influence on their decisions to purchase spinal devices from
                     PODs 
                     Ninety-four percent of hospitals that purchased from PODs reported
                     that surgeon preference influenced their decision to purchase from
                     PODs. Surgeons often develop a preference for a company’s devices
                     after they gain familiarity and experience with that company’s devices.
                     Hospitals ranked surgeon preference over quality and effectiveness of
                     devices as factors that influenced their decision to purchase spinal
                     devices from PODs. About 90 percent of hospitals reported that quality
                     and effectiveness also influenced their decision. Although about three
                     quarters of hospitals that purchased devices from PODs reported that
                     they received additional services from them, only about 20 percent of
                     hospitals reported that those services influenced their decisions to
                     purchase from PODs (see Figure 1 on the following page).15




                     15
                       In addition to supplying devices, PODs and distributors not owned by physicians often
                     provide services to hospitals, such as technical and administrative support. About three
                     quarters of hospitals reported that they received technical support from PODs in the
                     operating room. Thirty-one percent of hospitals received assistance from PODs to
                     manage their inventory of spinal devices. Ten percent of hospitals received help from
                     PODs with coding to bill for their devices. Non-physician owned companies offer similar
                     services.



Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   11
  Figure 1: Factors That Influenced Hospitals’ Decisions To Purchase From PODs
        Surgeon device preference                               Device quality                           Services PODs provide


                              65% reported that                             60% reported that                           8% reported that
                              surgeon preference                            device quality had a                        services PODs offered
                              had a major influence                         major influence                             had a major influence

                              29% reported that                             31% reported that                           13% reported that
                                                                            device quality had                          services PODs offered
         94%                  surgeon preference
                              had some influence          91%               some influence             21%              had some influence
      reported surgeon                                 reported device                              reported services
          preference          6% reported that        quality influenced    9% reported that          PODs offered      79% reported that
       influenced their       surgeon preference        their decision      device quality had no    influenced their   services PODs offered
           decision           had no influence                              influence                    decision       had no influence

  Source: OIG analysis of hospital questionnaire responses, 2013.


                          Many hospitals purchased spinal devices from PODs owned
                          by physicians practicing in their hospitals
                          PODs are owned by physicians practicing inside or outside the hospitals
                          they sell spinal devices to. About two-thirds of hospitals reported that
                          they purchased from PODs owned by physicians practicing in their
                          hospitals.
                          PODs also varied by whether they distributed devices that they
                          manufactured or devices manufactured by others. Three-quarters of
                          hospitals purchased spinal devices from PODs that manufactured their
                          own devices (see Figure 2).
                          Figure 2: Hospitals’ Use of PODs by PODs’ Manufacturing Capabilities




                           
                                                                                    19% of
                                                                                   hospitals
                                                                                     bought
                                  40% of hospitals                                       only
                                  bought only from              36% of                  from
                                  PODs that                     hospitals             PODs
                                  manufacture                                            that
                                                                 bought
                                  their own                                              buy
                                  devices                      from both
                                                                                    devices
                                                                                       from
                                                                                      other
                                                                                    entities


                                                                     5% of hospitals were unclear whether
                                                                     PODs manufactured their own devices

                          Source: OIG analysis of hospital questionnaire responses, 2013.
   

                          Most hospitals did not purchase exclusively from PODs. Ninety-four
                          percent of hospitals that purchased spinal devices from PODs also
                          purchased devices from companies not owned by physicians.
                          Hospitals were not always aware of physician investment in spinal

Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)                                   12
                     device companies. About 40 percent of hospitals that purchased from
                     PODs were uncertain whether one or more of their other suppliers were
                     PODs.
   

                     Over half of hospitals had policies requiring physicians to
                     disclose ownership stakes in device companies to the
                     hospitals; far fewer required physicians to disclose to patients
                     Although Federal law does not require physicians to disclose ownership
                     stakes in device companies to hospitals they practice in, 65 percent of
                     hospitals had policies requiring them to do so. Disclosure policies can
                     help hospitals and patients identify whether their physicians have
                     potential conflicts of interest through investment in medical device
                     companies.
                     Hospitals’ disclosure policies varied. Some hospitals noted only
                     requiring physicians to disclose ownership during the credentialing or
                     hiring process. Furthermore, some hospitals noted that they required
                     disclosure only from certain types of employees, such as managers and
                     administrators. 
                     Only 8 percent of hospitals that purchased from PODs reported that they
                     required physicians to disclose to their patients whether they have
                     ownership stake in the device companies they use.16 Federal law does
                     not require physicians to disclose such ownership to their patients.
                     When hospitals in our sample began purchasing
                     devices from PODs, their rates of spinal surgery
                     grew faster than the rate for hospitals overall 
                     The presence of PODs may encourage surgeons to perform more
                     surgeries or more complex surgeries to increase device sales. To
                     explore this issue, we compared rates of spinal surgeries performed at
                     hospitals in the sixth month before they started purchasing from PODs
                     and in the sixth month after they started purchasing from PODs. We
                     compared changes in these rates between two groups of hospitals: all
                     hospitals that billed Medicare for spinal surgery and the hospitals in our
                     sample that self-identified in the questionnaire responses that they




                     16
                       In the questionnaire, we asked all 589 hospitals in our sample about their disclosure
                     policies, regardless of whether they purchased from PODs. Overall, 60 percent of
                     hospitals reported that they had policies in place to require physicians to disclose to the
                     hospitals whether they have an ownership stake in medical device companies and 13
                     percent had policies requiring disclosure to patients.



Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)          13
                     purchased spinal devices from PODs.17 We limit our consideration to
                     these hospitals because they told us in the responses when they began
                     purchasing from PODs. This analysis spans from FY 2004 to FY 2012. 
                     The growth in the rate of spinal surgery after hospitals began
                     purchasing from PODs was three times that for all hospitals 
                     Hospitals’ overall rate of spinal surgery—which includes spinal
                     decompression only, spinal fusion, and spinal revision—grew more
                     quickly for the group of hospitals in our sample that purchased from
                     PODs. Before these hospitals started purchasing from PODs, they
                     performed 95 spinal surgeries per 1,000 surgical discharges. This rate
                     grew to 110 spinal surgeries per 1,000 surgical discharges after these
                     hospitals began purchasing from PODs, an increase of 16 percent. Over
                     matched time periods, the rate for hospitals overall grew by only
                     5 percent, from 57 to 60 spinal surgeries per 1,000 surgical discharges
                     (see Chart 2).
                     Chart 2: Types of Spinal Surgeries Performed Before and After Hospitals
                     Started Purchasing Spinal Devices From PODs
   
   
   
   
   
   
   
   
   
   
   




                     Source: OIG analysis of hospital questionnaire responses and the Medicare Standard Analytical File, 2013.


                     Furthermore, hospitals’ rate of spinal fusions—surgeries that are
                     more likely to use spinal devices—grew more than twice as fast
                     among hospitals that used PODs compared to the rate for
                     hospitals overall. The rate of spinal fusions among hospitals that
                     used PODs increased by 21 percent (from 62 to 75 spinal fusions


                     17
                       We excluded 17 of the 119 hospitals that self-identified that they used PODs from this
                     analysis because we did not have claims data available for the periods before and after
                     they began purchasing from PODs.



Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)                        14
                     per 1,000 surgical discharges) compared to 9 percent at all
                     hospitals (from 34 to 37 spinal fusions per 1,000 surgical
                     discharges). 
                     The complexity of hospitals’ caseloads of spinal surgeries
                     remained largely unchanged after they began purchasing from
                     PODs
                     We used three measures to describe the complexity of hospitals’ caseloads
                     of spinal surgeries: the percentage of caseload that was spinal fusion, the
                     percentage that was complex spinal fusion, and the percentage that was
                     spinal refusion.
                     The complexity of the spinal surgery caseload at hospitals in our
                     sample that used PODs shifted slightly after they began purchasing
                     from PODs, but not across all measures. For example, the
                     percentage of spine surgery (either simple or complex) that was
                     spinal fusion shifted in favor of spinal fusions after hospitals began
                     purchasing from PODs. Prior to hospitals’ purchasing from PODs,
                     spinal fusion and decompression-only accounted for 61 and 39
                     percent of their spine caseloads, respectively. After hospitals began
                     purchasing from PODs, spinal fusion increased to 65 percent of
                     their caseloads while decompression-only fell to 35 percent. For
                     hospitals overall, spinal fusion increased slightly from 60 percent
                     to 62 percent of their spinal caseloads over the same time periods.
                     Examining growth in this measure also highlights the potential for
                     increased device usage because spinal fusion, which fuses
                     vertebrae together, is more likely to involve implanted devices than
                     decompression-only. 
                     Two other measures of complexity remained unchanged and
                     decreased slightly, respectively, after hospitals began purchasing
                     from PODs. The percentage of complex spinal fusion accounted
                     for 14 percent of hospitals’ spinal caseloads both before and after
                     they began purchasing from PODs. At hospitals overall, the
                     percentage of complex spinal fusion increased slightly, from
                     12 to 13 percent over the same time periods. The percentage of
                     spinal refusion, which involves refusing a fusion that failed
                     previously or fusing additional vertebrae after a previous surgery,
                     decreased from 6 percent of spinal surgeries before hospitals
                     started purchasing from PODs to 5 percent afterward. At hospitals
                     overall, the percent of spinal refusion remained unchanged at
                     4 percent over the same time periods.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   15
                     In FY 2012, hospitals in our sample that
                     purchased from PODs performed more spinal
                     surgeries than those that did not purchase from
                     PODs        


                     We compared hospitals’ rates and caseloads of spinal surgery in FY
                     2012 between two groups of hospitals: the 203 hospitals in our
                     sample that purchased from PODs and the 386 hospitals in our
                     sample that did not purchase from PODs. For this analysis,
                     hospitals that purchased from PODs included those that self-
                     reported in the hospital questionnaire responses that they purchased
                     from PODs and those we identified through our cross-referencing
                     of data from the responses and invoice review. 
                     Hospitals that purchased devices from PODs performed over a
                     quarter more spinal surgeries than hospitals that did not
                     purchase from PODs 
                     Hospitals that did not purchase spinal devices from PODs performed
                     99 spinal surgeries per 1,000 surgical discharges in FY 2012. Hospitals
                     that purchased spinal devices from PODs performed 28 percent more
                     spinal surgeries, or 131 spinal surgeries per 1,000 surgical discharges (see
                     Chart 3).
                     Chart 3: Type of Spinal Surgeries Performed in FY 2012 at Hospitals in Our
                     Sample




                     Source: OIG analysis of hospital questionnaire responses, invoice review data, and the Medicare Standard
                     Analytical File, 2013.


                     The complexity of hospitals’ caseloads of spinal surgeries was
                     slightly higher for hospitals that purchased devices from
                     PODs than that for hospitals that did not purchase from PODs 
                     On each of the three measures we used to describe the complexity of
                     hospitals’ caseloads, hospitals that purchased from PODs had a slightly
                     more complex caseload than other hospitals.


Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)                       16
                     First, hospitals in our sample that purchased from PODs performed
                     more spinal fusion and less decompression-only surgery than hospitals
                     that did not purchase from PODs. Spinal fusion made up 76 percent of
                     the spinal surgery caseload at hospitals that purchased from PODs. It
                     made up 69 percent of the caseload at hospitals that did not purchase
                     from PODs. Conversely, decompression-only made up 25 percent of
                     the spinal surgery caseload at hospitals that purchased form PODs and
                     31 percent of the caseload at hospitals that did not purchase from PODs.
                     The other measure of complexity that was slightly higher for hospitals
                     that purchased from PODs was the percentage of caseload that was
                     complex spinal fusion. At hospitals that purchased from PODs,
                     complex spinal fusion made up 18 percent of the spinal surgery caseload
                     compared to 16 percent at hospitals that did not purchase from PODs.
                     Our final measure of complexity, percentage of caseload that was spinal
                     refusion, was similar between hospitals that purchased from PODs and
                     those that did not purchase from PODs. Spinal refusion made up
                     7 percent of the caseloads at hospitals that purchased from PODs and
                     6 percent of the caseloads at hospitals that did not purchase from PODs.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   17
                     CONCLUSION
                     PODs have a substantial presence in the spinal device market. PODs
                     provided devices used in nearly a fifth of the spinal surgeries billed to
                     Medicare in FY 2011, and over a third of the hospitals in our sample
                     purchased spinal devices from PODs. Many of these hospitals began
                     purchasing from PODs after 2009. Also, few hospitals in our sample
                     required physicians to disclose their ownership in device companies,
                     such as PODs, to their patients.
                     In FY 2012, hospitals that purchased from PODs performed more spinal
                     surgeries and had slightly more complex spinal surgery caseloads than
                     hospitals that did not purchase from PODs. After they began purchasing
                     from PODs, hospitals experienced increased rates of growth in the
                     number of spinal surgeries performed as compared to the growth rate for
                     hospitals overall. Determining the cause for the increased rate of spinal
                     procedures was beyond the scope of our review.
                     In addition, our findings raise questions about PODs’ claims that their
                     devices cost less than other suppliers. Within the device categories we
                     examined, PODs’ devices either cost the same as or more than devices
                     from companies not owned by physicians. This, combined with the
                     volume of spinal surgeries we found at hospitals that purchase from
                     PODs, may increase the cost of spinal surgery to the Medicare program
                     and beneficiaries over time. Further, hospitals inconsistently required
                     physicians to disclose ownership interests in PODs to either the hospitals
                     or their patients. Thus the ability of hospitals and patients to identify
                     potential conflicts of interest among these providers is reduced.
                     The Sunshine Act may improve the ability of hospitals and patients to
                     identify physicians’ investment in device companies. The Act will
                     require most PODs to report to CMS all physician ownership and
                     investment interests.18 CMS plans to list these companies and their
                     payments on a publicly available Web site.
                     This report is being issued directly in final form because it contains no
                     recommendations.




                     18
                          42 CFR§ 403.906.



Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   18
                     APPENDIX A
                     Detailed Methodology
                     This study used Medicare claims and enrollment data, a review of the
                     invoices for spinal devices implanted by a representative sample of spinal
                     fusion surgeries billed to Medicare, and questionnaire responses from the
                     hospitals that billed for Medicare for these surgeries.
                     Scope
                     This study is national in scope. For the purposes of this study, we defined
                     “spinal surgery” as spinal decompression and spinal fusion. Our sample
                     of claims included surgeries that involved a spinal fusion procedure and
                     were billed to Medicare during FY 2011. We focused our sample on
                     spinal fusion because surgeries involving these procedures were more
                     likely to use implanted spinal devices than surgeries that involved only
                     decompression. See Table A-1 for the complete list of procedures we
                     used. We did not make any judgment on the legality of hospitals’
                     relationships with PODs or on the appropriateness of spinal surgeries
                     performed by surgeons.
                     Table A-1: ICD-9 Codes Used To Identify Spinal Surgeries

                     ICD-9
                     Procedure       ICD-9 Procedure Code Description
                     Code

                     81.0 / 81.3     Spinal fusion/refusion

                     81.00 / 81.30   Spinal fusion/refusion, not otherwise specified

                     81.01 / 81.31   Atlas-axis spinal fusion/refusion

                     81.02 / 81.32   Other cervical fusion/refusion of the anterior column, anterior technique

                     81.03 / 81.33   Other cervical fusion/refusion of the posterior column, posterior technique

                     81.04 / 81.34   Dorsal and dorsolumbar fusion/refusion of the anterior column, anterior technique

                     81.05 / 81.35   Dorsal and dorsolumbar fusion/refusion of the posterior column, posterior technique

                     81.06 / 81.36   Lumbar and lumbosacral fusion/refusion of the anterior column, anterior technique

                     81.07 / 81.37   Lumbar and lumbosacral fusion/refusion of the posterior column, posterior technique

                     81.08 / 81.38   Lumbar and lumbosacral fusion/refusion of the anterior column, posterior technique

                     81.39           Refusion of spine, not elsewhere classified

                     81.62           Fusion or refusion of 2-3 vertebrae

                     81.63           Fusion or refusion of 4-8 vertebrae

                     81.64           Fusion or refusion of 9 vertebrae

                     84.51           Insertion of interbody spinal fusion device




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)                19
                     Sample Selection
                     The sample universe for this file is all inpatient claims with discharge
                     dates in FY 2011. We created our sampling frame by limiting the file to
                     claims that reported one or more ICD-9-CM procedure codes for spinal
                     fusion (see Table A-1 for the complete list of procedures we used). This
                     resulted in population file of 127,547 claims for spinal surgery. From this
                     file, we drew a simple random sample of 1,000 claims billed by
                     615 hospitals.
                     We used data from CMS’s Certification and Survey Provider Enhanced
                     Reporting (CASPER) database to get the name and address of each
                     hospital in our sample and then forwarded these data to our Office of
                     Investigations for review. As a result of this review, we removed
                     29 claims from 19 hospitals from our sample, leaving our data collection
                     sample with 971 claims from 596 hospitals.
                     Data Collection
                     We administered the hospital questionnaire and asked hospitals to
                     complete an invoice worksheet using secure Web-based survey software
                     from November 2012 through February 2013. To initiate the data
                     collection, we sent each hospital with a claim in our sample an invitation
                     packet via a trackable delivery service. Each packet contained an
                     invitation letter; a printed copy of the hospital questionnaire; a printed
                     copy of the invoice review worksheet; detailed instructions, including a
                     secure hyperlink and login credentials to the Web-based survey; and
                     identifying information for the sampled claim(s) from that hospital. We
                     made three attempts to obtain responses from hospitals. Of the
                     596 hospitals associated with claims in our data collection sample,
                     589 hospitals completed the questionnaire. These hospitals also provided
                     invoice worksheet information for 963 of the 971 claims included in our
                     sample.19 Our overall response rate was 96 percent.
                     Hospital Questionnaire. We requested each hospital that billed for one or
                     more spinal surgeries in our sample to answer a series of questions about
                     the entities it purchases spinal devices from. We asked each hospital about
                     its awareness of physician-ownership among its suppliers of spinal
                     devices. In doing so, we differentiated between PODs owned by
                     physicians practicing inside the hospital and those owned by physicians
                     practicing outside the hospital. We defined physician-owners as those



                     19
                       Five of the hospitals in our sample refused to provide invoice information detailing
                     spinal devices implanted during eight inpatient stays covered by Medicare. We will refer
                     these hospitals to CMS.



Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   20
                     with a partial or full ownership stake through private investment,
                     excluding stock in a publicly traded company.
                     If a hospital acknowledged purchasing from a POD, we asked it to identify
                     the extent to which certain factors influenced its decision to purchase from
                     a POD: cost savings on devices, quality of devices, clinical effectiveness,
                     preference of surgeons, and additional services. We also asked whether
                     PODs provided services to the hospital, including inventory management,
                     operating room technical support, and coding assistance. We asked each
                     hospital to estimate the date it began purchasing from a POD and asked
                     that it identify the name and ownership structure (i.e., manufacturer,
                     distributor, or unknown type of entity) of the POD(s) it purchased from.
                     Finally, we asked whether the hospital was physician owned and asked
                     about its policies on physician disclosure of ownership in medical device
                     companies.
                     Invoice Review. We asked each hospital to complete a worksheet for each
                     spinal surgery it had in our sample. To help hospitals identify each
                     surgery, we provided them with the dates of admission from the claims
                     and identified the beneficiaries treated with data from the Medicare
                     Enrollment Database. The worksheet compiled detailed data about the
                     spinal devices used for the surgery. These data included the number and
                     types of devices implanted during the surgery and the price per device net
                     of any manufacturer/distributor discounts or rebates. The worksheet also
                     collected information about the entity that supplied the hospital with the
                     devices, including what the entity’s name was, whether the entity was a
                     manufacturer or distributor, and whether the entity was a POD. We asked
                     hospitals to substantiate the data they provided on the worksheet by
                     sending us hard copies of supporting documents, such as invoices and
                     purchase orders. In our analysis, we used only data substantiated by
                     hospitals in this manner.
                     Pre-Test. Prior to our data collection effort, we pre-tested the hospital
                     questionnaire and invoice review with four hospitals. We purposively
                     selected one spinal procedure claim from each hospital and sent each
                     hospital a test version of our invitation packet. We held a conference call
                     with each hospital after it completed the pretest to discuss its experience
                     with the questionnaire and invoice review and any recommendations for
                     improvement that arose from the pretest. The pretest enabled us to
                     improve our data collection instruments and gather data that informed our
                     sampling plan.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   21
                     Data Analysis
                     To determine the extent to which spinal surgeries used spinal devices
                     provided by PODs and to determine whether the cost or quantity of spinal
                     devices used in these surgeries differed for PODs, we used data from the
                     invoice review. We supplemented the invoice review with data provided
                     on the hospital questionnaire responses. Specifically, we cross-referenced
                     PODs that hospitals reported in questionnaire responses to suppliers that
                     hospitals reported on the invoice review to identify suppliers that hospitals
                     may not have identified on the invoice review as being PODs. Our
                     findings on spinal surgeries are generalizable to the population of
                     surgeries involving spinal fusion and spinal revisions billed to Medicare
                     during FY 2011.
                     To determine the extent to which hospitals associated with our claims
                     sample purchased spinal devices from PODs, we used data from the
                     questionnaire responses and the invoice review. We counted hospitals as
                     purchasing from PODs if they self-identified as using PODs on the
                     responses or invoice review or if we identified them through our cross-
                     referencing of these two data sources. When hospitals reported publicly
                     traded companies as PODs, we excluded those companies from our
                     analysis. The responses identified 119 hospitals that reported purchasing
                     spinal devices from PODs, and our cross-referencing identified a further
                     84 hospitals, for a total of 203 hospitals in our sample that purchased from
                     PODs.
                     We also analyzed the questionnaire responses to learn why hospitals
                     purchase spinal devices from PODs and determine the extent to which
                     they have policies on physician disclosure of ownership in medical device
                     companies. Our findings from this analysis are generalizable to the
                     119 hospitals in our sample that self-identified as using PODs in the
                     responses.
                     To determine whether rates and complexities of spinal surgeries differed
                     when hospitals purchased from PODs, we first categorized hospitals’
                     spinal surgery claims by complexity of the surgical procedures reported on
                     them. To do so, we used the ICD-9 procedure codes reported on the
                     claims to classify them from least to most complex: decompression-only,
                     simple spinal fusion, or complex spinal fusion. When the procedure codes
                     on a claim reported multiple procedures, we classified that claim on the
                     basis of the most complex procedure reported. For example, when a claim
                     contained procedure codes for both decompression and simple fusion, we
                     classified the claim as simple fusion. We also created a flag for increased
                     complexity when simple or complex fusions were also spinal revisions
                     (repeats or add-ons to prior fusion surgeries). We used these
                     classifications to create rates by type of spinal surgery and three measures

Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   22
                     to describe complexity of hospitals’ spinal surgery caseloads: the
                     percentage of caseload that was spinal fusion, the percentage that was
                     complex spinal fusion, and the percentage that was spinal revision. We
                     then conducted two separate analyses of hospitals’ claims data.
                     Our first analysis compared the hospitals’ caseload of spinal procedures
                     performed before and after hospitals began purchasing devices from
                     PODs. This analysis examined the rate and complexity of spine surgeries
                     performed by hospitals that purchased from PODs in the sixth month
                     before and in the sixth month after they began purchasing from PODs. As
                     a comparison against these hospitals, we analyzed the spinal surgery
                     caseload at all hospitals for the same before and after time periods. For
                     example, if Hospital A started buying from PODs in March 2011, we
                     calculated its rate of spine surgeries before it began purchasing from PODs
                     using all spine surgeries performed by Hospital A in September 2010. We
                     calculated the all-hospital rate using the rate of spine surgeries performed
                     in September 2010, but across all hospitals, not only at Hospital A. Our
                     findings from this analysis are generalizable only to the hospitals in our
                     sample that self-identified as using PODs in the questionnaire responses
                     and that also told us when they first began purchasing spinal devices from
                     PODs. We excluded 17 of the 119 hospitals that self-identified that they
                     used PODs from this analysis because we did not have claims data
                     available for the periods before and after they began purchasing from
                     PODs.
                     The second analysis compared the spinal surgery caseload during FY 2012
                     between the 203 hospitals in our sample that purchased from PODs and
                     the remaining 386 hospitals that responded to the questionnaire. Similar
                     to our first analysis, this analysis considered rate and complexity of
                     surgeries for these two groups.
                     Limitations
                     This study relies on Medicare claims and the hospital questionnaire
                     responses, which were self-reported by hospitals. We did not
                     independently verify these data. Certain findings are limited to the
                     hospitals associated with our sample of claims and are not generalizable.
                     We describe changes in utilization rates over time, but did not determine
                     the cause of those changes. We relied on ICD-9-CM procedure codes
                     reported by hospitals on Medicare claims to determine the type and
                     complexity of spinal procedures. We also did not assess the clinical
                     benefits or equivalency of POD devices and non-POD devices.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   23
                     Standards
                     This study was conducted in accordance with the Quality Standards for
                     Inspection and Evaluation issued by the Council of the Inspectors General
                     on Integrity and Efficiency.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   24
             APPENDIX B
             Confidence Intervals
                                                                                                                  95% Confidence Interval
                                                                                                         Point
 Variable                                                     Unweighted N            Weighted N
                                                                                                      Estimate
                                                                                                                 Lower Bound   Upper Bound

 Percent of Surgeries Using PODs Devices                                   926              118,109     18.8%          16.3%          21.3%

 Mean Number of Devices Used

   For POD Surgeries                                                       174               22,193       12.3          11.2           13.4

   For Non-POD Surgeries                                                   752               95,915       14.2          13.5           15.0

   For POD Complex Spinal Fusion Surgeries                                  36                4,592       16.5          13.5           19.4

   For Non-POD Complex Spinal Fusion Surgeries                             187               23,851       23.0          20.8           25.1

 Mean Total Device Cost

   For POD Surgeries                                                       174               22,193    $11,601       $10,448        $12,754

   For Non-POD Surgeries                                                   752               95,915    $11,383       $10,705        $12,062

 Mean Cost of Devices For POD Surgeries

   Spinal plates                                                            82                  90      $2,475        $2,183         $2,768

   Other screws                                                             91                 293       $699           $602           $795

   Interbody fusion devices, non-bone                                       95                 128      $2,821        $2,455         $3,187

   Pedicle screws                                                           63                 206       $942           $836         $1,048

   Rods                                                                     74                 110       $345           $232           $458

   Cap/set screws                                                           60                 302       $142           $119           $165

 Mean Cost of Devices For Non-POD Surgeries

   Spinal plates                                                           251                 263      $1,630        $1,477         $1,784

   Other screws                                                            883                2,806      $620           $589           $652

   Interbody fusion devices, non-bone                                      376                 476      $2,998        $2,820         $3,177

   Pedicle screws                                                          557                1,693      $892           $856           $928

   Rods                                                                    544                 871       $360           $340           $380

   Cap/set screws                                                          365                2,261      $148           $135           $162

  Source: OIG analysis of hospital questionnaire responses and invoice review data, 2013.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)                 25
                     APPENDIX C
                     Distribution of Sampled Surgeries by State
                                                                             Number of           Percentage of
                                                       Number of
                       State                                            Surgeries Using        Surgeries Using
                                                 Spinal Surgeries
                                                                          POD Devices             POD Devices
                       California                                 76                     24                  32%
                       Florida                                    73                     11                  15%
                       Texas                                      65                     19                  29%
                       Georgia                                    44                      8                  18%
                       North Carolina                             42                      5                  12%
                       Pennsylvania                               39                      9                  23%
                       Michigan                                   38                      4                  11%
                       Ohio                                       37                      6                  16%
                       Missouri                                   34                     11                  32%
                       Illinois                                   28                      5                  18%
                       Minnesota                                  26                      2                   8%
                       New York                                   26                      6                  23%
                       Alabama                                    25                      9                  36%
                       Tennessee                                  25                      4                  16%
                       Virginia                                   25                      4                  16%
                       Oklahoma                                   23                      6                  26%
                       South Carolina                             22                      3                  14%
                       Indiana                                    21                      3                  14%
                       Kansas                                     19                      1                   5%
                       Maryland                                   19                      2                  11%
                       Colorado                                   17                      3                  18%
                       Massachusetts                              16                      1                   6%
                       New Jersey                                 15                      0                   0%
                       Washington                                 15                      1                   7%
                       Kentucky                                   13                      1                   8%
                       Louisiana                                  13                      0                   0%
                       Connecticut                                12                      0                   0%
                       Arizona                                    11                      1                   9%
                       Idaho                                      11                      3                  27%
                       Nevada                                     11                      6                  55%
                       Arkansas                                    8                      1                  13%
                       Mississippi                                 8                      4                  50%
                       Oregon                                      8                      0                   0%
                       Wisconsin                                   8                      0                   0%
                       Iowa                                        7                      0                   0%
                       Nebraska                                    6                      2                  33%
                       South Dakota                                6                      3                  50%
                       Utah                                        6                      3                  50%
                       Delaware                                    4                      0                   0%
                       Montana                                     3                      0                   0%
                       North Dakota                                3                      0                   0%
                       New Hampshire                               3                      0                   0%
                       Wyoming                                     3                      1                  33%
                       Alaska                                      2                      0                   0%
                       Hawaii                                      2                      0                   0%
                       Maine                                       2                      0                   0%
                       New Mexico                                  2                      1                  50%
                       District of Columbia                        1                      0                   0%
                       Rhode Island                                1                      0                   0%
                       Vermont                                     1                      1                 100%
                       West Virginia                               1                      0                   0%
                       Total                                     926                    174                     19%
                     Source: OIG analysis of hospital questionnaire responses and invoice review data, 2013.



Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)
            26
                     ACKNOWLEDGMENTS
                     This report was prepared under the direction of Joyce Greenleaf, Regional
                     Inspector General for Evaluation and Inspections in the Boston regional
                     office; Kenneth Price, Deputy Regional Inspector General; and Russell
                     Hereford, Deputy Regional Inspector General.
                     Jesse Valente served as the team leader for this study, and Alyson Cooper
                     served as the lead analyst. Other Office of Evaluation and Inspections
                     staff from the Boston regional office who contributed to this study include
                     Tim Chettiath, Melissa Hafner, and Elizabeth Havener. Central office
                     staff who provided support include Clarence Arnold, Heather Barton,
                     Berivan Demir Neubert, and Christine Moritz.




Spinal Devices Supplied by Physician-Owned Distributors: Overview of Prevalence and Use (OEI-01-11-00660)   27
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
